CERTIFICATE OF SERVICE
NO. TBD
Clinton Sides et ux.
Petitioner(s)
v.
Central Kansas Conservancy, Inc.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CLINTON
SIDES ET UX. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michael T. Mills
Attorney at Law
111 E. Marlin Street
P.O. Box 276
McPherson, KS 67460-0276
(620) 241-7007
lawmills@mpks.net
Counsel for Central Kansas Conservancy, Inc.

Brett A. Reber
Casey R. Law
Wise & Reber, L.C.
120 W. Kansas Avenue, Suite B
McPherson, KS 67460
(620) 241-0554
breber@bwisecounsel.com
claw@bwisecounsel.com
Counsel for Central Kansas Conservancy, Inc.

Lucas DeDeus

March 6, 2020
SCP Tracking: Hughes-1635 N. Waterfront Parkway-Cover White

